No. 19-963
IN THE

Supreme Court of the United States
___________

HENRY SCHEIN, INC.,
Petitioner,
v.
ARCHER AND WHITE SALES, INC.,
Respondent.

___________

On Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
___________
BRIEF OF CONSTITUTIONAL ACCOUNTABILITY
CENTER AS AMICUS CURIAE IN SUPPORT OF
RESPONDENT
___________
ELIZABETH B. WYDRA
BRIANNE J. GOROD*
ASHWIN P. PHATAK
CONSTITUTIONAL
ACCOUNTABILITY CENTER
1200 18th St. NW
Suite 501
Washington, D.C. 20036
(202) 296-6889
brianne@theusconstitution.org
Counsel for Amicus Curiae
October 20, 2020

* Counsel of Record

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES .................................

ii

INTEREST OF AMICUS CURIAE ......................

1

INTRODUCTION
AND
SUMMARY
OF
ARGUMENT ......................................................

1

ARGUMENT .........................................................

5

I.

THE TEXT OF THE FEDERAL ARBITRATION ACT CREATES, AND
THIS COURT’S PRECEDENTS RECOGNIZE, A STRONG PRESUMPTION THAT THE PARTIES TO A
CONTRACT DO NOT DELEGATE
QUESTIONS OF ARBITRABILITY
TO AN ARBITRATOR ..........................

5

THE INCORPORATION IN A CONTRACT OF ARBITRAL RULES CONTAINING A JURISDICTIONAL PROVISION IS NOT CLEAR AND UNMISTAKABLE EVIDENCE THAT
THE PARTIES WISHED TO DELEGATE QUESTIONS OF ARBITRABILITY EXCLUSIVELY TO AN ARBITRATOR ............................................

12

CONCLUSION .....................................................

24

II.

ii
TABLE OF AUTHORITIES
Cases

Page(s)

Apollo Computer, Inc. v. Berg,
886 F.2d 469 (1st Cir. 1989) ............. 17, 18, 19
Atkinson v. Sinclair Refining Co.,
370 U.S. 238 (1962) ...................................

9

AT&T Techs., Inc. v. Commc’n Workers of
Am.,
475 U.S. 643 (1986) ........................... 3, 5, 9, 10
Awuah v. Coverall North Am., Inc.,
554 F.3d 7 (1st Cir. 2009) .........................

20

Blanton v. Domino’s Pizza Franchising
LLC,
962 F.3d 842 (6th Cir. 2020) .................... 21, 22
BG Grp., PLC v. Republic of Argentina,
572 U.S. 25 (2014) ..................................... 3, 8
Contec Corp. v. Remote Solution, Co.,
398 F.3d 205 (2d Cir. 2005) ......................

19

Daiei, Inc. v. United States Shoe Corp.,
755 F. Supp. 299 (D. Haw. 1991) ..............

19

Dean Witter Reynolds, Inc. v. Byrd,
470 U.S. 213 (1985) ................................... 5, 9
Fallo v. High-Tech Inst.,
559 F.3d 874 (8th Cir. 2009) .....................

20

First Options of Chi., Inc. v. Kaplan,
514 U.S. 938 (1995) .............................. passim

iii
TABLE OF AUTHORITIES – cont’d
Page(s)
Granite Rock Co. v. Int’l Brotherhood of
Teamsters,
561 U.S. 287 (2010) ................................... 9, 12
Howsam v. Dean Witter Reynolds, Inc.,
537 U.S. 79 (2002) ............................... 9, 11, 12
Int’l Union of Operating Eng’rs, Local 150,
AFL-CIO v. Flair Builders, Inc.,
406 U.S. 487 (1972) ...................................

9

John Wiley & Sons, Inc. v. Livingston,
376 U.S. 543 (1964) ...................................

9

Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, Inc.,
473 U.S. 614 (1985) ................................... 3, 9
Moses H. Cone Mem’l Hosp. v. Mercury
Constr. Corp.,
460 U.S. 1 (1983) .......................................

10

Oracle Am., Inc. v. Myriad Grp. A.G.,
724 F.3d 1069 (9th Cir. 2013) ...................

22

Petrofac, Inc. v. DynMcDermott Petroleum
Operations Co.,
687 F.3d 671 (5th Cir. 2012) .....................

21

Qualcomm Inc. v. Nokia Corp.,
466 F.3d 1366 (Fed. Cir. 2006) .................

20

Riley Mfg. Co. v. Anchor Glass Container
Corp.,
157 F.3d 775 (10th Cir. 1998) ...................

23

iv
TABLE OF AUTHORITIES – cont’d
Page(s)
Rent-A-Center, West, Inc. v. Jackson,
561 U.S. 63 (2010) ........................ 10, 11, 12, 15
Rep. of Arg. v. BG Grp. PLC,
665 F.3d 1363 (D.C. Cir. 2012) .................

22

Schneider v. Kingdom of Thai.,
688 F.3d 68 (2d Cir. 2012) ........................

22

Shaw Group Inc. v. Triplefine Intern.
Corp.,
322 F.3d 115 (2d Cir. 2003) ..................... 18, 19
Terminix Intern. Co. v. Palmer Ranch Ltd.
Partnership,
432 F.3d 1327 (11th Cir. 2005) .................

19

United Steelworkers of Am. v. Warrior &
Gulf Nav. Co.,
363 U.S. 574 (1960) ................................... 9, 10

Constitutional Provisions and Legislative Material
Federal Arbitration Act (FAA), Pub. L. No.
68-401, 43 Stat. 883 (1925), codified as
amended at 9 U.S.C. § 1 et seq. ................ 1, 5
H.R. Rep. No. 96, 68th Cong., 1st Sess.
(1924) ......................................................... 6, 8
9 U.S.C. § 2 ...................................................

6

9 U.S.C. § 3 ................................................... 3, 7

v
TABLE OF AUTHORITIES – cont’d
Page(s)
9 U.S.C. § 4 .................................................. 3, 7, 8
9 U.S.C. § 6 ...................................................

8

Books, Articles, Other Authorities
George A. Bermann, Arbitrability Trouble,
23 Am. Rev. Int’l Arb. 367 (2012) ..... 14, 15, 17
Jan Paulsson, The Idea of Arbitration
(2013) ..........................................................

15

Restatement (Third) U.S. Law of Int’l
Comm. Arb., Tentative Draft No. 4
(April 17, 2015) .................................. 15, 16, 17

1
INTEREST OF AMICUS CURIAE1
Amicus Constitutional Accountability Center
(CAC) is a think tank, public interest law firm, and action center dedicated to fulfilling the progressive
promise of our Constitution’s text and history. CAC
works in our courts, through our government, and with
legal scholars to improve understanding of the Constitution and other federal laws. CAC has a strong interest in the proper interpretation of the Federal Arbitration Act, including the important role it assigns the
courts in deciding questions of arbitrability, and accordingly has an interest in this case.
INTRODUCTION AND
SUMMARY OF ARGUMENT
Under the Federal Arbitration Act (FAA), Pub. L.
No. 68-401, 43 Stat. 883 (1925), codified as amended
at 9 U.S.C. § 1 et seq., the parties to a contract may
agree to resolve their disputes via arbitration rather
than in court. This case concerns the question of
whether the parties to a contract have agreed to arbitrate, and if so, for what issues. Specifically, the parties here disagree over who should decide the arbitrability of their dispute: a court or an arbitrator.
The contract at issue provides that “[a]ny dispute
arising under or related to this Agreement (except for
actions seeking injunctive relief . . .), shall be resolved
1 The parties have consented to the filing of this brief, and
their letters of consent have been filed with the Clerk. Under
Rule 37.6 of the Rules of this Court, amicus states that no counsel
for a party authored this brief in whole or in part, and no counsel
or party made a monetary contribution intended to fund the preparation or submission of this brief. No person other than amicus
or its counsel made a monetary contribution to its preparation or
submission.

2
by binding arbitration in accordance with the arbitration rules of the American Arbitration Association
[(AAA)].” J.A. 114. These AAA rules include a jurisdictional provision stating that “[t]he arbitrator shall
have the power to rule on his or her own jurisdiction,
including any objections with respect to the existence,
scope or validity of the arbitration agreement.” Id. at
135. Seizing upon that jurisdictional provision in the
AAA rules, Petitioners argue that the parties agreed
that an arbitrator would decide the arbitrability of any
dispute arising under their contract. Pet’r Br. 8.
The court below disagreed. Although the court concluded that the reference to the AAA rules meant that
the parties had agreed to arbitrate some arbitrability
questions, it held that courts should decide arbitrability for actions within the carve-out clause of the contract: “actions seeking injunctive relief.” See Pet. App.
11a (the “plain language” of the contract “incorporates
the AAA rules—and therefore delegates arbitrability—for all disputes except those under the carve-out”).
This Court should affirm, but not for the reason
given by the court below. Under the text of the Federal
Arbitration Act and this Court’s precedents, parties to
a contract cannot delegate the question of arbitrability
to an arbitrator simply by referencing arbitral rules
like the AAA rules in their contract. Because the parties did not agree to arbitrate arbitrability for any dispute, this Court need not even reach the question
whether the parties agreed to arbitrate arbitrability
for issues falling within the carve-out. See Resp. Br.
11 (“The AAA incorporation issue is an antecedent
question; it falls squarely within the umbrella of the
question presented; and it presents an alternative
ground for affirmance.”).
Congress passed the FAA to permit parties to agree
to arbitrate their disputes. Importantly, however,

3
Congress left a key role for the courts—deciding the
question of arbitrability. Indeed, the text of the Act
requires courts to let arbitrators decide disputes, but
only “upon being satisfied that the issue involved in
such suit or proceeding is referable to arbitration under such an agreement.” 9 U.S.C. § 3; see id. § 4 (“[i]f
the making of the arbitration agreement or the failure,
neglect, or refusal to perform the same be in issue, the
court shall proceed summarily to the trial thereof,” and
either the court or a jury “shall hear and determine
such issue” (emphasis added)).
This Court’s precedents confirm that under the
FAA, “courts presume that the parties intend[ed]
courts, not arbitrators, to decide what we have called
disputes about ‘arbitrability.’” BG Grp., PLC v. Republic of Argentina, 572 U.S. 25, 34 (2014); Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth, Inc., 473 U.S.
614, 626 (1985) (“the first task of a court asked to compel arbitration of a dispute is to determine whether the
parties agreed to arbitrate that dispute” (emphasis
added)). To be sure, the Court has held that the parties can contract around this presumption and require
an arbitrator to decide the arbitrability question.
However, “[c]ourts should not assume that the parties
agreed to arbitrate arbitrability unless there is ‘clea[r]
and unmistakabl[e]’ evidence that they did so.” First
Options of Chi., Inc. v. Kaplan, 514 U.S. 938, 944
(1995) (emphasis added) (quoting AT&T Techs., Inc. v.
Commc’n Workers of Am., 475 U.S. 643, 649 (1986)).
Said another way, “silence or ambiguity about the
question ‘who (primarily) should decide arbitrability’”
means that the courts—not an arbitrator—should decide that question. Id. at 944-45.
Under this standard, the contract at issue here
could not possibly provide clear and unmistakable evidence that the parties wished to delegate the

4
arbitrability question to an arbitrator. The plain language of the contract itself says nothing whatsoever
about who decides arbitrability, let alone clearly and
unmistakably reserves that question for an arbitrator.
See id. at 944 (“silence or ambiguity” means a court
decides arbitrability).
Nor can the contract’s reference to the AAA rules
provide such clear and unmistakable evidence. For
one thing, it is doubtful that a mere reference to generic arbitral rules, no matter what they say, could
provide evidence that the parties clearly and unmistakably decided to let an arbitrator decide the question
of arbitrability. See id. at 945 (arbitrability is an “arcane” issue that “[a] party often might not focus upon,”
so parties must provide “clear and unmistakable evidence” of their intent). In any event, the text of the
AAA rules provides simply that the arbitrator has “the
power to” rule on jurisdiction, not that the arbitrator
shall have exclusive jurisdiction over questions of arbitrability or that courts are precluded from making
such decisions. Simply referencing rules that provide
an arbitrator with jurisdiction to hear questions of arbitrability cannot, in itself, provide clear and unmistakable evidence that the parties both considered the
question of who decides arbitrability and wished to
strip courts of that power. Indeed, because most contracts reference arbitral rules with a jurisdictional
provision, holding otherwise would mean that most
contracts implicitly delegate arbitrability to an arbitrator, contravening Congress’s plan reflected in the
text of the FAA that courts should ordinarily decide
that issue.
As such, the jurisdictional provision of the AAA
rules cannot overcome the presumption that courts decide questions of arbitrability. At best for Petitioners,
the provision is ambiguous or silent on the matter, and

5
ambiguity cuts in favor of retaining courts’ ordinary
jurisdiction to decide questions of arbitrability. This
Court should hold that the parties to a contract do not
clearly and unmistakably agree to arbitrate arbitrability simply because their contract references generic arbitral rules with a jurisdictional provision.
ARGUMENT
I. THE TEXT OF THE FEDERAL ARBITRATION ACT CREATES, AND THIS COURT’S
PRECEDENTS RECOGNIZE, A STRONG
PRESUMPTION THAT THE PARTIES TO A
CONTRACT DO NOT DELEGATE QUESTIONS OF ARBITRABILITY TO AN ARBITRATOR.
In 1925, Congress passed the Federal Arbitration
Act, Pub. L. No. 68-401, 43 Stat. 883 (1925), codified as
amended at 9 U.S.C. § 1 et seq., which permitted parties to a contract to agree to arbitrate contractual disputes. Although the Act expanded the ability of arbitrators to resolve contractual disputes, the Act’s text
nevertheless retained a key role for courts, providing
that courts, not arbitrators, should generally decide
questions of arbitrability. And while this Court has
held that parties can delegate the question of arbitrability to an arbitrator, it has explained that “[c]ourts
should not assume that the parties agreed to arbitrate
arbitrability unless there is ‘clea[r] and unmistakabl[e]’ evidence that they did so.” First Options, 514
U.S. at 944 (quoting AT&T Techs., 475 U.S. at 649).
This clear-and-unmistakable standard derives from
the text of the Act and is firmly cemented in this
Court’s precedents.
1. The Federal Arbitration Act was passed to “overrule the judiciary’s longstanding refusal to enforce
agreements to arbitrate.” Dean Witter Reynolds, Inc.

6
v. Byrd, 470 U.S. 213, 219-20 (1985). As the House
explained when it passed the Act, English courts had
“refused to enforce specific agreements to arbitrate
upon the ground that the courts were thereby ousted
from their jurisdiction,” and that common-law rule
persisted in the United States. H.R. Rep. No. 96, 68th
Cong., 1st Sess., 1-2 (1924). Though the rule prohibiting arbitration had been criticized, American courts
“felt that the precedent was too strongly fixed to be
overturned without legislative enactment.” Id at 2.
The Act was therefore passed to “declare[] simply that
such agreements for arbitration shall be enforced, and
provide[] a procedure in the Federal courts for their
enforcement.” Id.
The key passage of the Act, Section 2, provides:
A written provision in . . . a contract evidencing
a transaction involving commerce to settle by
arbitration a controversy thereafter arising out
of such contract or transaction . . . shall be
valid, irrevocable, and enforceable, save upon
such grounds as exist at law or in equity for the
revocation of any contract.
9 U.S.C. § 2. In other words, the provision places arbitration agreements “upon the same footing as other
contracts.” H.R. Rep. No. 96, at 1.
Importantly, however, although the Act permits
parties to agree to resolve disputes by arbitration, the
Act’s text also leaves a critical role for courts in deciding the threshold question of arbitrability—that is,
whether and for which issues the parties agreed to arbitrate. First, Section 3 of the Act provides that courts
must send contractual disputes to an arbitrator, but
only once the court has determined that the parties in
fact agreed to submit disputes to arbitration:

7
If any suit or proceeding be brought in any of
the courts of the United States upon any issue
referable to arbitration under an agreement in
writing for such arbitration, the court in which
such suit is pending, upon being satisfied that
the issue involved in such suit or proceeding is
referable to arbitration under such an agreement, shall on application of one of the parties
stay the trial of the action until such arbitration
has been had in accordance with the terms of
the agreement.
9 U.S.C. § 3 (emphasis added). In other words, courts
are called upon to ensure “that the issue involved in
such suit or proceeding is referable to arbitration” before sending a matter to an arbitrator. Id.
Second, Section 4 of the Act provides that any party
“aggrieved by the alleged failure, neglect, or refusal of
another to arbitrate under a written agreement for arbitration may petition any United States district court
[that would otherwise have jurisdiction] . . . for an order directing that such arbitration proceed in the manner provided for in such agreement.” Id. § 4. Much
like Section 3, however, Section 4 requires a court to
“hear the parties, and upon being satisfied that the
making of the agreement for arbitration or the failure
to comply therewith is not in issue, the court shall
make an order directing the parties to proceed to arbitration in accordance with the terms of the agreement.” Id. (emphasis added).
Section 4 also spells out procedures that courts
should use in determining whether the parties agreed
to arbitrate their dispute. It says that “[i]f the making
of the arbitration agreement or the failure, neglect, or
refusal to perform the same be in issue, the court shall
proceed summarily to the trial thereof,” and either the
court or a jury “shall hear and determine such issue.”

8
Id. Moreover, “[i]f the jury find that an agreement for
arbitration was made in writing and that there is a default in proceeding thereunder, the court shall make
an order summarily directing the parties to proceed
with the arbitration in accordance with the terms
thereof.” Id.
Finally, further spelling out the procedures that
courts should use in deciding questions of arbitrability, Section 6 of the Act says that “[a]ny application to
the court hereunder shall be made and heard in the
manner provided by law for the making and hearing of
motions, except as otherwise herein expressly provided.” Id. § 6.
In short, Congress explicitly reserved in the text of
the Act a role for the courts to determine the question
of arbitrability. This textual reservation of the arbitrability question to the courts is confirmed by the
House Report accompanying the Act, which repeatedly
referred to proceedings in federal court to determine
whether an “arbitration agreement ever was made.”
H.R. Rep. No. 96, at 2; see id. at 1 (“[w]hether an agreement for arbitration shall be enforced or not is a question of procedure to be determined by the law court in
which the proceeding is brought”); id. (“[t]he bill declares that such agreements shall be recognized and
enforced by the courts of the United States” (emphasis
added)); id. at 2 (“[t]he bill declares simply that such
agreements for arbitration shall be enforced, and provides a procedure in the Federal courts for their enforcement” (emphasis added)); id. (“[t]here is provided
a method for the summary trial of any claim that no
arbitration agreement ever was made”).
2. This Court’s precedents confirm what the text of
the Federal Arbitration Act says: that it is ordinarily
the role of the courts to decide questions of arbitrability. See BG Grp., 572 U.S. at 34 (“courts presume that

9
the parties intended courts, not arbitrators, to decide
what we have called disputes about ‘arbitrability’”).
As this Court has repeatedly and consistently explained, “[i]t is well settled in both commercial and labor cases that whether parties have agreed to ‘submi[t]
a particular dispute to arbitration’ is typically an ‘issue
for judicial determination.’” Granite Rock Co. v. Int’l
Brotherhood of Teamsters, 561 U.S. 287, 296 (2010)
(quoting Howsam v. Dean Witter Reynolds, Inc., 537
U.S. 79, 83 (2002)); see Dean Witter Reynolds, 470 U.S.
at 219 (“the purpose behind [the FAA’s] passage was
to ensure judicial enforcement of privately made
agreements to arbitrate” (emphasis added));
Mitsubishi Motors, 473 U.S. at 626 (“the first task of a
court asked to compel arbitration of a dispute is to determine whether the parties agreed to arbitrate that
dispute” (emphasis added)).2
The Court has also made this point in the related context of
collective-bargaining arbitration for at least 60 years. See, e.g.,
AT&T Techs., 475 U.S. at 649 (“the question of arbitrability—
whether a collective-bargaining agreement creates a duty for the
parties to arbitrate the particular grievance—is undeniably an issue for judicial determination” (emphasis added)); Int’l Union of
Operating Eng’rs, Local 150, AFL-CIO v. Flair Builders, Inc., 406
U.S. 487, 491 (1972) (“whether a union and employer have agreed
to arbitration . . . as well as the scope of the arbitration clause,
remains a matter for judicial decision” (emphasis added)); John
Wiley & Sons, Inc. v. Livingston, 376 U.S. 543, 547 (1964) (“The
duty to arbitrate being of contractual origin, a compulsory submission to arbitration cannot precede judicial determination that
the collective bargaining agreement does in fact create such a
duty.” (emphasis added)); Atkinson v. Sinclair Refining Co., 370
U.S. 238, 241 (1962) (“whether or not the company was bound to
arbitrate, as well as what issues it must arbitrate, is a matter to
be determined by the Court on the basis of the contract entered
into by the parties” (emphasis added)); United Steelworkers of
Am. v. Warrior & Gulf Nav. Co., 363 U.S. 574, 582 (1960) (“Congress . . . assigned the courts the duty of determining whether the
2

10
To be sure, that “judicial inquiry” is “strictly confined to the question whether the reluctant party did
agree to arbitrate the grievance or did agree to give the
arbitrator power to make the award he made.” Warrior & Gulf, 363 U.S. at 582. And the Court has explained that “[t]he Arbitration Act establishes that, as
a matter of federal law, any doubts concerning the
scope of arbitrable issues should be resolved in favor of
arbitration.” Moses H. Cone Mem’l Hosp. v. Mercury
Constr. Corp., 460 U.S. 1, 24-25 (1983). But it is nonetheless a “judicial inquiry,” a responsibility of the court
to determine whether the parties agreed to arbitrate a
particular grievance.
Moreover, while “a court must defer to an arbitrator’s arbitrability decision when the parties submitted
that matter to arbitration,” First Options, 514 U.S. at
943, “[c]ourts should not assume that the parties
agreed to arbitrate arbitrability unless there is ‘clear
and unmistakable’ evidence that they did so,” id. at
944 (quoting AT&T Techs., 475 U.S. at 649); see id. (describing this rule as “an important qualification, applicable when courts decide whether a party has agreed
that arbitrators should decide arbitrability”); Rent-ACenter, West, Inc. v. Jackson, 561 U.S. 63, 69 n.1 (2010)
(parties must “manifest[] [an] intent” to arbitrate arbitrability). Said another way, “the law treats silence
or ambiguity about the question ‘who (primarily)
should decide arbitrability’ differently from the way it
treats silence or ambiguity about the question ‘whether
a particular merits-related dispute is arbitrable because it is within the scope of a valid arbitration agreement.’” First Options, 514 U.S. at 944-45. For the former question, the law assumes that parties wanted
courts to decide the question of arbitrability unless
reluctant party has breached his promise to arbitrate.” (emphasis
added)).

11
they clearly and unmistakably say otherwise, even
though that presumption is reversed for the latter
question. See Howsam, 537 U.S. at 83 (noting that
“there is an exception to th[e] policy” favoring arbitration for the question of arbitrability).
This Court has explained that “this difference in
treatment is understandable.” First Options, 514 U.S.
at 945. With regard to arbitrating disputes, “given the
law’s permissive policies in respect to arbitration, . . .
one can understand why the law would insist upon
clarity before concluding that the parties did not want
to arbitrate a related matter.” Id. But the question of
who should decide arbitrability (rather than the merits of an arbitrable dispute) “is rather arcane,” and “[a]
party often might not focus upon that question or upon
the significance of having arbitrators decide the scope
of their own powers.” Id. Thus, “one can understand
why courts might hesitate to interpret silence or ambiguity on the ‘who should decide arbitrability’ point
as giving the arbitrators that power, for doing so might
too often force unwilling parties to arbitrate a matter
they reasonably would have thought a judge, not an
arbitrator, would decide.” Id.; Howsam, 537 U.S. at 83
(explaining that for questions of arbitrability, “contracting parties would likely have expected a court to
have decided the gateway matter” and “are not likely
to have thought that they had agreed that an arbitrator would do so”).
An example of clear and unmistakable evidence of
the parties’ intent to arbitrate arbitrability can be
found in the contract at issue in Rent-A-Center, 561
U.S. at 63; see id. at 69 n.1 (noting that the parties did
not dispute “that the text of the Agreement was clear
and unmistakable” that “the arbitrator [had] the exclusive authority to decide whether the Agreement to
Arbitrate [was] enforceable”). There, the contract

12
stated that “[t]he Arbitrator, and not any federal, state,
or local court or agency, shall have exclusive authority
to resolve any dispute relating to the interpretation,
applicability, enforceability or formation of this Agreement including, but not limited to any claim that all or
any part of this Agreement is void or voidable.” Id. at
66 (emphasis added). At least two features of that language provide clear and unmistakable evidence that
the parties wished to arbitrate arbitrability. First, the
provision states that the arbitrator has “exclusive” authority to resolve disputes about “formation” or “applicability” of an agreement to arbitrate. Second, were
there any doubt, the provision states that “any federal,
state, or local court or agency” shall “not” have that
power. The contract is in that way a quintessentially
unambiguous expression of the parties’ intent to arbitrate arbitrability.
Absent this kind of clear and unmistakable evidence, however, this Court has reaffirmed that
“whether parties have agreed to ‘submi[t] a particular
dispute to arbitration’ is typically an ‘issue for judicial
determination.’” Granite Rock Co., 561 U.S. at 296
(quoting Howsam, 537 U.S. at 83). As the next Section
shows, the contract at issue here does not provide clear
and unmistakable evidence that these parties wished
to arbitrate the question of arbitrability.
II. THE INCORPORATION IN A CONTRACT OF
ARBITRAL RULES CONTAINING A JURISDICTIONAL PROVISION IS NOT CLEAR
AND UNMISTAKABLE EVIDENCE THAT
THE PARTIES WISHED TO DELEGATE
QUESTIONS OF ARBITRABILITY EXCLUSIVELY TO AN ARBITRATOR.
The contract at issue in this case does not provide
clear and unmistakable evidence that the parties
wished to delegate questions of arbitrability to an

13
arbitrator. To the contrary, the contract—along with
the rules of the American Arbitration Association
(AAA) that the contract references—say nothing about
placing the exclusive jurisdiction to decide arbitrability in the arbitrator. Nor do they indicate that courts
are precluded from addressing that question. At best
for Petitioners, the contract is ambiguous on the question, and “the law treats silence or ambiguity about the
question ‘who (primarily) should decide arbitrability’”
to mean that courts, not arbitrators, should decide that
question. First Options, 514 U.S. at 944. Although
several courts of appeals have come to the opposite
conclusion, those courts offer no persuasive reasoning
in support of their position.
1. The arbitration clause in the contract at issue
here provides that
[a]ny dispute arising under or related to this
Agreement (except for actions seeking injunctive relief and disputes related to trademarks,
trade secrets or other intellectual property of
Pelton & Crane) shall be resolved by binding arbitration in accordance with the arbitration
rules of the American Arbitration Association.
J.A. 114. There is nothing in this provision that even
resembles the language that appeared in the contract
in Rent-A-Car indicating that an arbitrator has exclusive jurisdiction to decide arbitrability and that courts
are precluded from doing so. Indeed, this provision
does not even mention arbitrability at all, let alone
provide any indication that only an arbitrator can decide the question of arbitrability. See Resp. Br. 16
(“the arbitration clause is silent on delegation; it does
not utter one syllable on the topic”).
Because the actual language of the contract says
nothing about arbitrability, and certainly does not

14
provide clear and unmistakable evidence that the arbitrator must decide that question, Petitioners rely on
the AAA rules referenced in the contract. A jurisdictional provision of those rules states that “[t]he arbitrator shall have the power to rule on his or her own
jurisdiction, including any objections with respect to
the existence, scope or validity of the arbitration agreement.” Id. at 135. Petitioners posit that this single
sentence among dozens of AAA rules provides sufficient evidence that the parties wished to arbitrate arbitrability. That theory plainly does not pass the
clear-and-unmistakable-evidence test that this Court
established in First Options.
First, a reference to arbitral rules in a contract is
not enough to provide clear and unmistakable evidence of the parties’ intent as to arbitrability. As this
Court has recognized, arbitrability is an “arcane” issue
that “[a] party often might not focus upon,” so “clea[r]
and unmistakabl[e] evidence” that the parties wished
to arbitrate arbitrability is necessary to avoid
“forc[ing] unwilling parties to arbitrate a matter they
reasonably would have thought a judge, not an arbitrator, would decide.” First Options, 514 U.S. at 945.
Yet in Petitioners view, simply citing generic rules
that include a jurisdictional clause granting the arbitrator the ability to decide her own jurisdiction is
enough to show that parties specifically contemplated
the question of who decides arbitrability and decided
that they wished arbitrators to decide it. That makes
little sense, especially because the jurisdictional provision is only “a single provision of a comprehensive set
of rules of arbitral procedure that the parties thought
to include in their arbitration agreement.” George A.
Bermann, Arbitrability Trouble, 23 Am. Rev. Int’l Arb.
367, 377 (2012). Simply referencing those rules in an
agreement without any elaboration on the question of

15
arbitrability cannot provide the sort of clear and unmistakable evidence that would “manifest[] [an] intent” to arbitrate arbitrability, Rent-A-Center, 561
U.S. at 69 n.1.
Second, even if referencing generic arbitral rules
could in some contexts provide clear and unmistakable
evidence that the parties wished to arbitrate arbitrability, the text of the jurisdictional provision in the
AAA rules plainly does not provide such evidence. The
provision provides simply that the arbitrator has “the
power to” rule on her jurisdiction. That language does
not say—or even suggest—that the arbitrator shall
have exclusive jurisdiction over questions of arbitrability. Nor does the language anywhere provide that
courts are precluded from making such decisions. See
Restatement (Third) U.S. Law of Int’l Comm. Arb.
§ 2.8 reporter’s note b(iii), Tentative Draft No. 4 (April
17, 2015) (“this language does not clearly indicate that
the authority of the arbitrators to determine their competence is exclusive of the courts’ authority to do so”).
Rather, the jurisdictional provision is silent about
whether it is intended to strip courts of jurisdiction to
decide arbitrability.
And significantly, there is an equally good alternative reason for the existence of the jurisdictional provision: it ensures that an arbitration proceeding need
not come to a halt simply because a party challenges
the arbitrator’s jurisdiction. See id. (the “principal
reason for inclusion of [a jurisdictional] provision in institutional rules was to dispel the notion that arbitrators could only decide their own jurisdiction to the extent that the parties expressly authorize them to do
so”); Jan Paulsson, The Idea of Arbitration 55 (2013)
(“the objective” of these jurisdictional provisions “is
only that the arbitral tribunal not be required to stop
as soon as it hears a challenge, but may rule on it”);

16
Bermann, supra, at 376 (provision has “effect of enabling a tribunal to address jurisdictional challenges rather than having to suspend proceedings and refer the
matter to a court of the arbitral situs”).
The AAA rules’ jurisdictional provision, therefore,
cannot overcome the presumption that courts will decide questions of arbitrability. At best for Petitioners,
the provision is ambiguous on the question of who decides arbitrability, and ambiguity cuts in favor of retaining courts’ ordinary jurisdiction to decide that
question. See Restatement (Third) U.S. Law of Int’l
Comm. Arb., supra at § 2.8 reporter’s note b(iii) (the
“rules do not purport to give arbitrators the exclusive
authority to rule on the enforceability of the arbitration agreement”).
Third, holding that a jurisdictional provision like
the one in the AAA rules provides clear and unmistakable evidence delegating arbitrability to arbitrators
would defy Congress’s plan in the FAA to generally reserve arbitrability questions for the courts. Jurisdictional provisions like this one “are ubiquitous in modern arbitration rules.” Id. at § 2.8. Indeed, most contracts calling for arbitration reference a set of arbitration rules to govern the dispute as an easy way for parties to set the terms of arbitration without having to
detail all of the procedures in their contract. See Resp.
Br. 17 (“parties incorporate the AAA rules for an obvious reason, and it has nothing to do with delegation: to
provide the ground rules for any arbitration”).
If this Court were to hold that referencing arbitration rules that contain an ambiguous jurisdictional
provision like the one at issue here manifests a clear
and unmistakable intent to arbitrate arbitrability, arbitrators would end up deciding arbitrability in most
contracts that provide for arbitration. That would reverse the presumption that arbitrability is ordinarily

17
decided by courts, leaving arbitrators—not courts—to
decide arbitrability in the mine run of cases. That cannot be right. See Bermann, supra, at 377 (“If the First
Options presumption can be overcome so easily, it is
far from the strong presumption that the Supreme
Court portrayed it as being and almost certainly intended it to be.”); Restatement (Third) U.S. Law of Int’l
Comm. Arb., supra at § 2.8 reporter’s note b(iii) (“If
[such provisions] were deemed to constitute ‘clear and
unmistakable evidence,’ the presence of such evidence
would cease to be exceptional, but rather become practically routine.”).
In short, nothing about the jurisdictional provision
in the AAA rules, let alone the contract at issue in this
case that references those rules, even suggests that the
parties wished to arbitrate arbitrability. And the contract certainly does not provide clear and unmistakable evidence of such intent. This Court should hold
that the parties did not agree to arbitrate arbitrability.
2. Even though referencing arbitration rules with
a jurisdictional provision like the one at issue here
plainly fails to meet this Court’s clear-and-unmistakable-evidence standard, several courts of appeals have
held that it does. Notably, however, these courts have
offered little reasoning to support this position, and instead have largely cited one another as the only
sources of authority in favor of that view.
The rule seems to have originated in a First Circuit
decision that predates this Court’s decision in First
Options. In Apollo Computer, Inc. v. Berg, 886 F.2d
469 (1st Cir. 1989), the First Circuit held that the parties agreed to arbitrate arbitrability where their contract provided that disputes would be settled by binding arbitration “in accordance with the rules of arbitration of the International Chamber of Commerce,” a
different set of arbitral rules. Id. at 473. The

18
International Chamber of Commerce (ICC) rules state
that if a party “raise[s] one or more pleas concerning
the existence or validity of the agreement to arbitrate,”
the arbitrator “may . . . decide that the arbitration
shall proceed.” Id. They also state that “the arbitrator
shall not cease to have jurisdiction by reason of any
claim that the contract is null and void or allegation
that it is inexistent provided that he upholds the validity of the agreement to arbitrate.” Id. Thus, much
like the AAA rules at issue here, the ICC rules at issue
in Apollo granted jurisdiction to the arbitrator to decide questions of arbitrability, but did not provide explicitly that such jurisdiction was exclusive or that
courts lacked jurisdiction to decide such questions.
The First Circuit acknowledged that “[o]rdinarily,
[the plaintiff] would be entitled to have these issues
resolved by a court.” Id. Nonetheless, the court decided that not only do these provisions in the ICC rules
“allow the arbitrator to determine her own jurisdiction,” but that courts were divested of their ability to
address these questions. Id. at 473-74. Without any
analysis, the court simply concluded that “[t]he arbitrator should decide whether a valid arbitration agreement exists between [the plaintiff] and the defendants
under the terms of the contract” and refused to opine
on the arbitrability question. Id. That conclusion conflicts directly with this Court’s supervening decision in
First Options, which held that “ambiguity about the
question ‘who (primarily) should decide arbitrability”
means that courts should decide that question. 514
U.S. at 944.
Nonetheless, in recent years, other courts of appeals have adopted the First Circuit’s rule that these
types of ambiguous jurisdictional clauses in arbitration rules meet the clear-and-unmistakable-evidence
standard without meaningfully analyzing the First

19
Options decision. For instance, in Shaw Group Inc. v.
Triplefine International Corp., the Second Circuit held
that identical ICC rules “specifically provide[] for the
[International Court of Arbitration], the arbitral body
of the ICC, to address questions of arbitrability.” 322
F.3d 115, 122 (2d Cir. 2003). The Court never addressed whether the ICC rules grant exclusive jurisdiction over arbitrability questions to an arbitrator, or
whether they unambiguously preclude courts from addressing questions about arbitrability. Rather, the
court simply cited Apollo and a Hawaii district court
decision for the proposition that such language clearly
and unmistakably provides evidence that the parties
wished to arbitrate arbitrability. Id. (citing Apollo
Computer, Inc., 886 F.2d at 472-73 and Daiei, Inc. v.
United States Shoe Corp., 755 F. Supp. 299, 303 (D.
Haw. 1991)).
Several courts of appeals then came to the same
conclusion regarding references to the AAA rules at issue in this case, relying on nothing more than these
prior decisions interpreting references to the ICC
rules. For instance, interpreting a contract that referenced the AAA rules, the Second Circuit held that
when “parties explicitly incorporate rules that empower an arbitrator to decide issues of arbitrability,
the incorporation serves as clear and unmistakable evidence of the parties’ intent to delegate such issues to
an arbitrator.” Contec Corp. v. Remote Solution, Co.,
398 F.3d 205, 208 (2d Cir. 2005). The court failed to
consider whether simply referencing rules that empower arbitrators to decide arbitrability unambiguously means that the parties wished the arbitrator to
have exclusive jurisdiction over that issue.
Similarly, the Eleventh Circuit held that a reference to the AAA rules means that “the parties clearly
and unmistakably agreed that the arbitrator should

20
decide whether the arbitration clause is valid.” Terminix Int’l Co. v. Palmer Ranch Ltd. Partnership, 432
F.3d 1327, 1332 (11th Cir. 2005). The Court cited the
Second Circuit’s decision in Contec and the First Circuit’s decision in Apollo without any further analysis.
The Federal Circuit likewise held that a reference
to the AAA rules in a contract, specifically its jurisdictional provision, provides clear and unmistakable evidence that the parties wished to arbitrate arbitrability. Qualcomm Inc. v. Nokia Corp., 466 F.3d 1366,
1373 (Fed. Cir. 2006). The Court said simply that it
“agree[d] with the Second Circuit’s analysis in Contec”
without elaboration. Id. So too with the Eighth Circuit, which held that “the arbitration provision’s incorporation of the AAA Rules . . . constitutes a clear and
unmistakable expression of the parties’ intent to leave
the question of arbitrability to an arbitrator.” Fallo v.
High-Tech Inst., 559 F.3d 874, 878 (8th Cir. 2009). The
Eighth Circuit cited Qualcomm, Terminix, Contec, and
Apollo without any further analysis.
The First Circuit too addressed incorporation of the
AAA rules in 2009 and cited its prior decision in
Apollo, as well as the Eleventh Circuit’s decision in
Terminix, to justify a finding that such incorporation
constituted clear and unmistakable evidence to arbitrate arbitrability. Awuah v. Coverall North Am., Inc.,
554 F.3d 7, 11 (1st Cir. 2009). The First Circuit even
acknowledged that “[i]t is doubtful that many people
read the small print in form contracts, let alone the
small print in arbitration rules that are cross-referenced by such contracts, however explicit the crossreference.” Id. at 12. But the court was undeterred,
still holding that such a cross-reference constituted
clear and unmistakable evidence of the parties’ intent
to arbitrate arbitrability.

21
The Fifth Circuit followed suit, holding in 2012 that
it “agree[d] with most of [its] sister circuits that the
express adoption of [AAA] rules presents clear and unmistakable evidence that the parties agreed to arbitrate arbitrability.” Petrofac, Inc. v. DynMcDermott
Petroleum Operations Co., 687 F.3d 671, 675 (5th Cir.
2012).
Most recently, the Sixth Circuit addressed this
question in Blanton v. Domino’s Pizza Franchising
LLC, 962 F.3d 842 (6th Cir. 2020), and similarly held
that merely referencing the AAA rules is sufficient evidence that the parties wished to arbitrate arbitrability. Though the court provided more analysis than
other courts of appeals, its reasoning also falls flat.
First, the court took the position that even though the
jurisdictional provision does not grant exclusive jurisdiction to the arbitrator, “the expression of one thing
often implies the exclusion of other things,” and suggested that exclusive jurisdiction is implied by the
phrase “[t]he arbitrator shall have the power to rule on
his or her own jurisdiction.” Id. at 849. The court also
suggested that a contrary reading would render the jurisdictional provision in the AAA rules “superfluous.”
Id. at 847. But as explained above, saying that the arbitrator “shall have the power to rule on his or her own
jurisdiction” does nothing more than permit an arbitrator to decide questions of arbitrability when the
parties have agreed to the arbitrator deciding the
question. See supra at 15-16. There is nothing superfluous about reading the AAA jurisdictional provision
as granting jurisdiction, but not exclusive jurisdiction,
to the arbitrator to decide arbitrability.
The Sixth Circuit also held that the parties in that
case clearly and unmistakably delegated arbitrability
to an arbitrator when they referenced the AAA rules
because “almost every circuit court in the country . . .

22
had held that this rule or similar ones gave arbitrators
the exclusive authority to arbitrate ‘arbitrability.’”
Blanton, 962 F.3d at 850. But that turns the First Options test on its head. The point of the clear-and-unmistakable test is that arbitrability is an “arcane” issue and the parties “often might not focus upon that
question.” First Options, 514 U.S. at 945. Thus, this
Court demanded clear and unmistakable evidence
that the parties considered the question of arbitrability and wished to arbitrate it. To hold that parties
clearly and unmistakably wished to delegate arbitrability to an arbitrator because court decisions interpreting similar contracts held as much assumes a level
of sophistication in parties to a contract that First Options explicitly rejected.
Finally, other courts have held that this same conclusion regarding referencing arbitral rules applies to
a contract that incorporates the rules of the United
Nations Commission on International Trade Law (UNCITRAL). See Oracle Am., Inc. v. Myriad Grp. A.G.,
724 F.3d 1069, 1074-75 (9th Cir. 2013) (the “prevailing
view” is that incorporation of UNCITRAL rules “is
clear and unmistakable evidence that the parties
agreed the arbitrator would decide” issues of arbitral
jurisdiction); Schneider v. Kingdom of Thai., 688 F.3d
68, 72-73 (2d Cir. 2012) (incorporation of UNCITRAL
rules serves as “clear and unmistakable evidence” that
parties intended for the arbitrator to decide issues of
arbitral jurisdiction); Rep. of Arg. v. BG Grp. PLC, 665
F.3d 1363, 1370-71 (D.C. Cir. 2012) (same). Like the
AAA rules, the UNCITRAL rules state that “[t]he arbitral tribunal shall have the power to rule on its own
jurisdiction, including any objections with respect to
the existence or validity of the arbitration agreement.”
Oracle Am., Inc., 724 F.3d at 1073.

23
In short, the courts of appeals have nearly uniformly held that a mere reference to arbitral rules that
have an ambiguous jurisdictional provision is enough
to provide clear and unmistakable evidence of parties’
intent to arbitrate the question of arbitrability. But
see Riley Mfg. Co. v. Anchor Glass Container Corp., 157
F.3d 775 (10th Cir. 1998) (holding that a contract that
referenced the AAA rules did not provide clear and unmistakable evidence of an intent to arbitrate arbitrability, although the court did not address whether the
AAA reference could provide that evidence). These
courts are wrong and have provided little reasoning in
favor of their position. This Court should correct these
courts’ mistakes and hold that a cross-reference to ambiguous arbitral rules is not sufficient to provide clear
and unmistakable evidence of the parties’ intent to arbitrate arbitrability.

24
CONCLUSION
For the foregoing reasons, the judgment of the
court below should be affirmed.
Respectfully submitted,
ELIZABETH B. WYDRA
BRIANNE J. GOROD*
ASHWIN P. PHATAK
CONSTITUTIONAL
ACCOUNTABILITY CENTER
1200 18th St. NW
Suite 501
Washington, D.C. 20036
(202) 296-6889
brianne@theusconstitution.org
Counsel for Amicus Curiae
October 20, 2020

* Counsel of Record

